No. _____

In the Supreme Court of the United States
__________________
JASON GONZALES,
Petitioner,
v.
MICHAEL J. MADIGAN, FRIENDS OF MICHAEL J.
MADIGAN, 13TH WARD DEMOCRATIC ORGANIZATION,
SHAW DECREMER, SILVANA TABARES, JOE BARBOZA, AND
GRASIELA RODRIGUEZ,
Respondents.
__________________
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

__________________
PETITION FOR A WRIT OF CERTIORARI
__________________
ANTHONY J. PERAICA
Counsel of Record
STEPHEN F. BOULTON*
JENNIFER M. HILL
ANTHONY J. PERAICA & ASSOCIATES, LTD.
5130 South Archer Avenue
Chicago, Illinois 60632
(773) 735-1700
support@peraica.com
Counsel for Petitioner
*Mr. Boulton’s application for admission
is pending
September 2, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
The Seventh Circuit affirmed the district court’s
entry of summary judgment for Defendants on the
grounds that the pre-election publicity of Petitioner’s
allegations of misconduct, made during an election
campaign, served to eliminate any violation of 42
U.S.C. §1983 or 42 U.S.C. §1985(3) stemming from
Defendants’ alleged misconduct, even if proven to exist
at trial.
One question is presented:
Do the protections of the First Amendment bar use of
a candidate’s unproven allegations of electoral
misconduct during an election campaign as a basis for
the entry of summary judgment against the candidate’s
post-election claims for deprivation of constitutional
rights based on the same allegations as made during
the campaign?

ii
LIST OF PARTIES
The parties in the below action were: Jason
Gonzales, Plaintiff-Appellant; Michael J. Madigan,
Defendant-Appellee; Friends of Michael J. Madigan,
Defendant-Appellee; 13 t h Ward Democratic
Organization, Defendant-Appellee; Shaw Decremer,
Defendant-Appellee; Silvana Tabares, DefendantAppellee; Joe Barboza, Defendant-Appellee; Grasiela
Rodriguez, Defendant-Appellee; Prisoner Review
Board, Defendant; and Ray Hanania, Defendant.
STATEMENT OF RELATED PROCEEDINGS
United States District Court (N.D. Ill.):
Docket No. 16-cv-7915
Gonzales v. Madigan, et al., 403 F. Supp. 3d 670
(N.D. Ill. 2019).
August 23, 2019.
Reconsideration: May 23, 2020.
United States Court of Appeals (7th Cir.):
Docket No. 20-1874
Gonzales v. Madigan, et al., 990 F.3d 561 (7th Cir.
2021).
March 8, 2021.
Rehearing: April 6, 2021.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES. . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . iv
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . v
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . 1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED. . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 5
REASONS FOR ALLOWANCE OF THE WRIT. . . . 8
I. REVIEW IS WARRANTED TO DETERMINE
WHETHER THE JUDGMENT BELOW
CREAT ED AN U N CONSITU T I O N AL
CHILLING EFFECT UPON POLITICAL
CAMPAIGN SPEECH . . . . . . . . . . . . . . . . . . . . 12
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

iv
TABLE OF APPENDICES
Appendix A Opinion in the United States Court of
Appeals for the Seventh Circuit
(March 8, 2021) . . . . . . . . . . . . . . . App. 1
Appendix B Memorandum Opinion and Order in
the United States District Court for
the Northern District of Illinois
Eastern Division
(August 23, 2019) . . . . . . . . . . . . . App. 7
Appendix C Judgment in a Civil Case in the
United States District Court for the
Northern District of Illinois
(August 23, 2019) . . . . . . . . . . . . App. 29
Appendix D Notification of Docket Entry in the
United States District Court for the
Northern District of Illinois Eastern
Division
(May 23, 2020) . . . . . . . . . . . . . . App. 32
Appendix E Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Seventh Circuit
(April 6, 2021) . . . . . . . . . . . . . . . App. 34

v
TABLE OF AUTHORITIES
CASES
Arizona Free Enter. Club’s Freedom Club PAC
v. Bennett, 564 U.S. 721, 131 S. Ct. 2806,
180 L. Ed. 2d 664 (2011) . . . . . . . . . . . . . 12, 13, 14
Buckley v. Valeo,
424 U.S. 1, 96 S. Ct. 612,
46 L. Ed. 2d 659 (1976) . . . . . . . . . . . . . . . . . . . . 13
Citizens United v. Fed. Election Comm’n,
558 U.S. 310, 130 S. Ct. 876,
175 L. Ed. 2d 753 (2010) . . . . . . . . . . . . . . . . . . . 12
Davis v. Fed. Election Comm’n,
554 U.S. 724, 128 S. Ct. 2759,
171 L. Ed. 2d 737 (2008) . . . . . . . . . . . . . . . . . . . 13
Fed. Election Comm’n v. Wisconsin Right To
Life, Inc., 551 U.S. 449, 127 S. Ct. 2652,
168 L. Ed. 2d 329 (2007) . . . . . . . . . . . . . . . . . . . 16
Fritz v. Pennsylvania R. Co.,
185 F.2d 31 (7th Cir. 1950). . . . . . . . . . . . . . . . . 15
Gonzales v. Madigan,
990 F.3d 561 (7th Cir. 2021). . . . . . . . . . . . . . . ii, 1
Gonzales v. Madigan,
403 F. Supp. 3d 670 (N.D. Ill. 2019) . . . . . . . . ii, 1
Grimes v. Smith,
585 F. Supp. 1084 (N.D. Ind. 1984),
aff’d, 776 F.2d 1359 (7th Cir. 1985) . . . . . . . . . . 16

vi
Jones v. Markiewicz-Qualkinbush,
892 F.3d 935 (7th Cir. 2018). . . . . . . . . . . . . 10, 11
Kozuszek v. Brewer,
546 F.3d 485 (7th Cir. 2008). . . . . . . . . . . . . . . . 17
Laird v. Tatum,
408 U.S. 1, 92 S. Ct. 2318,
33 L. Ed. 2d 154 (1972) . . . . . . . . . . . . . . . . . . . . 13
Reeves v. Sanderson Plumbing, Products, Inc.,
530 U.S. 133, 120 S. Ct. 2097 (2000) . . . . . . . . . 15
Sarsha v. Sears, Roebuck & Co.,
3 F. 3d 1035 (7th Cir. 1993) . . . . . . . . . . . . . . . . 15
Smith v. Cherry,
489 F.2d 1098 (7th Cir. 1973). . . . . . . . . . . . 10, 11
CONSTITUTION AND STATUTES
U.S. Const. art. III . . . . . . . . . . . . . . . . . . . . . . . . . 2, 8
U.S. Const. amend. I . . . . . . . . . . . . . . . . 2, 12, 13, 14
U.S. Const. amend. IX . . . . . . . . . . . . . . . . . . . . . 2, 12
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . 2, 12
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . i, 3, 10
42 U.S.C. § 1985(3). . . . . . . . . . . . . . . . . . i, 3, 6, 7, 11

1
OPINION BELOW
The initial opinion of the United States Court of
Appeals for the Seventh Circuit is reported at Gonzales
v. Madigan, 990 F.3d 561 (7th Cir. 2021). The Seventh
Circuit affirmed the August 23, 2019 decision of the
United States District Court for the Northern District
of Illinois, Eastern Division, reported at Gonzales v.
Madigan, 403 F. Supp. 3d 670 (N.D. Ill. 2019). The
courts denied Gonzales’ constitutional and statutory
claims due to publication in the media.
STATEMENT OF JURISDICTION
The United States’ Supreme Court’s jurisdiction is
invoked under 28 U.S.C. §1254(1).
The Seventh Circuit’s opinion was rendered on
March 8, 2021. The Petition for Panel Rehearing En
Banc was denied on April 6, 2021.
U.S. Supreme Court order, dated March 19, 2020,
provides for extension of deadline to file petition for a
writ of certiorari.

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
United States Constitution—Article III
The Judicial Power of the United States, shall be
vested in one supreme Court, and in such inferior
Courts as the Congress may from time to time ordain
and establish. . . . The Judicial Power shall extend to
all Cases, in Law and Equity, arising under this
Constitution, the Laws of the United States, and the
Treaties made, or which shall be made, under their
Authority; . . .
First Amendment To U.S. Constitution
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or
of the press; or the right of the people peaceably to
assemble, and to petition the Government for a redress
of grievances.
Ninth Amendment To U.S. Constitution
The enumeration in the Constitution, of certain rights,
shall not be construed to deny or disparage others
retained by the people.
Fourteenth Amendment to U.S. Constitution
Section 1.
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall

3
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
42 U.S.C.A. § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia.
42 U.S.C.A. § 1985(3)
If two or more persons in any State or Territory
conspire or go in disguise on the highway or on the
premises of another, for the purpose of depriving,
either directly or indirectly, any person or class of
persons of the equal protection of the laws, or of equal
privileges and immunities under the laws; or for the
purpose of preventing or hindering the constituted

4
authorities of any State or Territory from giving or
securing to all persons within such State or Territory
the equal protection of the laws; or if two or more
persons conspire to prevent by force, intimidation, or
threat, any citizen who is lawfully entitled to vote, from
giving his support or advocacy in a legal manner,
toward or in favor of the election of any lawfully
qualified person as an elector for President or Vice
President, or as a Member of Congress of the United
States; or to injure any citizen in person or property on
account of such support or advocacy; in any case of
conspiracy set forth in this section, if one or more
persons engaged therein do, or cause to be done, any
act in furtherance of the object of such conspiracy,
whereby another is injured in his person or property, or
deprived of having and exercising any right or privilege
of a citizen of the United States, the party so injured or
deprived may have an action for the recovery of
damages occasioned by such injury or deprivation,
against any one or more of the conspirators.

5
STATEMENT OF THE CASE
Petitioner Jason Gonzales filed nomination papers
to appear on the ballot in the March 15, 2016
Democratic Party Primary seeking nomination as the
Democratic candidate for Illinois State Representative
for the 22nd Representative District; a district covering
an area in the City of Chicago near Midway Airport
that had become heavily Hispanic in population. The
other candidates on the ballot were: Defendant Michael
Madigan, Speaker of the Illinois House of
Representatives and Representative of the area then
comprising the district since 1971, Defendant Joe
Barboza; and Defendant Grasiela Rodriguez, the latter
two being Hispanic. Gonzales’ candidacy was openly
portrayed as an electoral challenge to Madigan’s long
tenure as Representative based upon the substantial
shift to a Hispanic population in the district.
During the primary campaign, Gonzales publicly
asserted both on his own and in local media that
Barboza and Rodriguez were sham candidates placed
on the ballot though efforts of Madigan and his
operatives, solely to split the Hispanic vote to defeat
Gonzales. None of the statement or articles, however,
contained any evidence beyond the mere allegation that
Gonzales believed he had observed an operative of
Madigan filing the nomination petitions for the pair.
At least one published news article contained the
affirmative denial of the Madigan campaign that
Barboza and Rodriguez were put up as candidates by
Madigan and his operatives.
Gonzales produced evidence that there was voter
confusion among the Hispanics, as to who was actively

6
seeking the 22nd District seat. Voters told Gonzales that
they were not going to vote because with several
Hispanic names on the ballot splitting the vote, the
winner was obvious: it would be the incumbent.
Others stated that they did not like either Gonzales or
Madigan, so they considered the other two
candidates—Rodriguez and Barboza. Gonzales testified
that voters did not believe him when he told them
Rodriguez and Barboza were straw candidates, not
actively running candidates. Voters did not understand
how sham candidates could get on the ballot.
On March 15, 2016, Madigan won the Primary
election handily, gaining over 65% of the primary vote.
On August 5, 2016, Gonzales filed his Complaint in
the District Court against the three opponents and
other claimed operatives of Madigan, alleging
deprivation of Petitioner’s constitutional and federal
rights under color of state law individually, in their
official capacity, and as members of a conspiracy in
violation of 42 U.S.C. §1983, along with related state
claims. On June 20, 2017, the District Court dismissed
Petitioner’s First Amended Complaint with prejudice
on ground of a lack of action taken under color of law.
On July 17, 2017, however, Petitioner moved under
Rule 59(e) to alter the judgment and amend the
complaint to add a claim under 42 U.S.C. §1983(5). On
September 11, 2017, the Court granted that motion,
vacated the June 20, 2017 judgment, and allowed the
filing of Petitioner’s Second Amended Complaint.
Extensive motion practice resulted in dismissal of all
claims but those arising under Section 1983 for
deprivation of Equal Protection and conspiracy through

7
vote dilution, as well as claims under Section 1985(3)
and state law claims for conspiracy to deprive
Petitioner of his constitutional rights. Petitioner’s
claim is limited to money damages, and no new election
was sought as relief.
After extensive discovery, on June 7, 2019, the
Defendants filed their Motion for Summary Judgment.
After the matter was briefed, the United States District
Court for the Northern District of Illinois granted
summary judgment; thereby ending the lawsuit on
August 23, 2019.
The District Court found that a jury could
reasonably find that Barboza and Rodriguez’s
purported candidacies were orchestrated by Madigan’s
associates, working on Madigan’s behalf, in that
Barboza and Rodriguez had been solicited to run by
Madigan operatives, and that Madigan operatives had
helped circulate nominating petitions in an effort to
configure or otherwise dilute Gonzales’ support among
Hispanic voters. The District Court also determined
that a reasonable jury could find that the actions of the
Defendants affected the act of voting by altering the
makeup of the primary ballot, and that the evidence
supported a reasonable inference that Madigan
authorized or at least was aware of the recruitment
effort.
The District Court also found, however, that
summary judgment was appropriate because during
the campaign Gonzales had publicized his allegations
that Barboza and Rodriguez were sham candidates,
and media articles contained the allegations, thereby
allowing the voters to “punish Madigan at the polls,”

8
which precluded Petitioner’s claims.
Summary
judgment for the Defendants was granted on all
remaining claims.
Petitioner filed his notice of appeal to the Court of
Appeals for the Seventh Circuit and Docketing
Statement on May 26, 2020. After the matter was
briefed, a panel of the Seventh Circuit heard oral
arguments on November 10, 2020. On March 8, 2021,
the Seventh Circuit issued its ruling affirming the
entry of summary judgment. On March 22, 2021,
Petitioner petitioned the Seventh Circuit for a
Rehearing En Banc, which was denied on April 6, 2021.
On April 14, 2021, the Seventh Circuit issued its
mandate.
REASONS FOR ALLOWANCE OF THE WRIT
The judiciary is one of three equally important
branches of the United States government. The power
of the judiciary is set forth in Article III of the United
States Constitution. “The Judicial Power of the United
States, shall be vested in one supreme Court, and in
such inferior Courts as the Congress may from time to
time ordain and establish.” U.S. Const., Art. III, Sec. 1.
“The Judicial Power shall extend to all Cases, in Law
and Equity, arising under this Constitution, the Laws
of the United States, and the Treaties made, or which
shall be made, under their Authority. . .” U.S. Const.,
Art. III, Sec. 2. Article III federal judges have no fixed
term and by design are supposed to be insulated to
allow the judges to apply the law with only justice in
mind and not electoral or political concerns.

9
The foundation of jurisdiction of the federal
judiciary has been placed at issue by the lower courts.
Despite the power of and the obligations of the
judiciary, the federal district court in the Northern
District of Illinois and the Court of Appeals in the
Seventh Circuit refrained from addressing Jason
Gonzales’ constitutional rights.
The Northern District of Illinois, Eastern Division,
concluded that a jury viewing the evidence in the light
most favorable to Gonzales could reasonably find that
the defendants, working on Madigan’s behalf,
orchestrated and solicited Barboza and Rodriguez to
run and helped circulate their nominating petitions in
an effort to confuse or otherwise dilute Gonzales’
support among Hispanic voters and perhaps others.
However, since these matters were publicized, the
court found that “publicity placed the alleged
misconduct squarely within the political realm” and
granted summary judgment.
The rejection of Gonzales’ claims is a disturbing
precedent because it creates a chilling effect upon
political speech in a political campaign by use of a
candidate’s own unproven allegations as a basis for
summary judgment. Accordingly, this case presents an
important question for the future of political discussion
in this country. The entry of summary judgment,
premised upon the naked assumptions that all the
voters, not only heard the allegations, but considered
them in voting, is a subtle but disturbing encroachment
on the protections of the First Amendment for political
campaign speech, perhaps the most protected form of
speech in American law.

10
The underlying district decision of this case is in
conflict with precedent of the United States Court of
Appeals for the Seventh Circuit. Under the Seventh
Circuit precedent of Smith v. Cherry, 489 F.2d 1098
(7th Cir. 1973), judicial relief was appropriate where
there was “deception on the face of the ballot” that
“clearly debased the rights of all voters in the election.”
Under the holding of this case, in the future a
candidate’s mere public allegation of misconduct, made
with no proof and fully denied by the opponent, is
evidence to be used to defeat claims made under civil
rights statues for deprivation of rights by electoral
misconduct. The District Court distinguished Smith,
and adopted the holding of Jones v. MarkiewiczQualkinbush, 892 F.3d 935, 939 (7th Cir. 2018), in
which judicial relief was denied, on ground that one
politician proposing and advocating a voter referendum
that adversely affected another politician was not
actionable since in that context “the price of political
dirty tricks must be collected at the ballot box rather
than the courthouse.” Despite the very different fact
pattern of Jones, the District Court distinguished
“cases where the fraud remains hidden during the
campaign” such as Smith, from those in which “the
fraud is publicized and widely communicated” such as
Jones, holding that Petitioner’s own publicity destroyed
his claim. App. 23.
The decision below creates an untenable chilling
effect on future campaign speech, as every candidate
believing that misconduct is occurring in a campaign
faces an untenable choice: make a public allegation
during the campaign and abandon any claim for relief
under federal civil rights statutes such as Section 1983

11
or Section 1985(3), whether the allegations are
ultimately proven or not, or stay silent during the
campaign, looking solely to possible action in court.
The First Amendment requires that unhindered
political campaign discussion be protected from the
imposition of such a conundrum by the courts. This
disturbing precedent therefore must be reviewed.
Furthermore, the Seventh Circuit has repeatedly
declined to decide “when a politically retaliatory step
goes too far” or how to balance politician’s speech given
each person’s rights under the First Amendment and
Equal Protection Clause. Jones v. MarkiewiczQalkinbush, 892 F. 3d 935 (7th Cir. 2018). In this
matter, after the Seventh Circuit touted all of
Defendant Madigan’s accolades in office, the court
brushed off Plaintiff’s arguments. “We mean no
disrespect to politicians in recognizing that many false
statements are made during political campaigns and
that many a stratagem that one side deems cleaver will
be seen by the opposition as a dirty trick.” App. 5. The
Seventh Circuit would not extend Smith v. Cherry to
this case, because there were no predecessor and no
successor cases, even though the case presented the
very factors favoring judicial relief articulated by the
Smith court, namely (1) “deception on the face of the
ballot” that (2) “clearly debased the rights of all voters
in the election,” factors plainly met by sham
candidacies designed to fool voters.
By failing to address and tackle the issues involved,
the lower federal courts have provided carte blanche to
political organizations to trample on and disparage the
rights of the people, including Jason Gonzales,

12
protected under the Constitution, including the 1st, 9th,
and 14th Amendments.
The United States Supreme Court should take up
this matter, not only to effectuate its inherent power,
but also establish that those who seek political office
and the political organizations that support them are
not above the law.
I. REVIEW IS WARRANTED TO DETERMINE
WHETHER THE JUDGMENT BELOW
CREATED AN UNCONSITUTIONAL
CHILLING EFFECT UPON POLITICAL
CAMPAIGN SPEECH.
The use of a candidate’s unproven allegations in a
campaign, made without proof, as conclusive evidence
to defeat a Section 1983 claim creates not only an
untenable conflict with the constitutional protections of
political speech, but also a conflict with the precedent
of this Court.
“The First Amendment has its fullest and most
urgent application to speech uttered during a campaign
for political office.” Arizona Free Enter. Club’s Freedom
Club PAC v. Bennett, 564 U.S. 721, 785, 131 S. Ct.
2806, 2846, 180 L. Ed. 2d 664 (2011). “Political speech
is central to the meaning and purpose of the First
Amendment.”
Citizens United v. Fed. Election
Comm’n, 558 U.S. 310, 328, 130 S. Ct. 876, 892, 175 L.
Ed. 2d 753 (2010).
Discussion of public issues and debate on the
qualifications of candidates are integral to the
operation of the system of government
established by our Constitution. The First

13
Amendment affords the broadest protection to
such political expression in order to assure the
unfettered interchange of ideas for the bringing
about of political and social changes desired by
the people.
Buckley v. Valeo, 424 U.S. 1, 14-15, 96 S. Ct. 612, 632,
46 L. Ed. 2d 659 (1976).
Violations of the First Amendment arise from the
deterrent, or “chilling” effect of government action that
falls short of a direct prohibition against the exercise of
First Amendment rights. Laird v. Tatum, 408 U.S. 1,
92 S. Ct. 2318, 33 L. Ed. 2d 154 (1972).
At least twice in recent years this Court has struck
down statutes that imposes a parallel choice in the
area of campaign finance. In Davis v. Federal Election
Comm’n, 554 U.S. 724, 128 S. Ct. 2759, 171 L. Ed. 2d
737 (2008), this Court struck down a state statute
which raised contribution limits for opponents when a
candidate’s use of personal funds exceeded a certain
level. The Court found the statue unconstitutional
because it imposed an “an unprecedented penalty” on
the candidates exercise of the First Amendment by
creating a “statutorily imposed choice”, namely “abide
by a limit on personal expenditures or endure the
burden that is placed on that right by the activation of
a scheme of discriminatory contribution limits.” 554
U.S. at 739, 128 S. Ct. at 2772.
Similarly, in Arizona Free Enterprise Club’s
Freedom Club PAC, supra, this Court struck down a
law that affirmatively granted an opponent matching
funds once a candidate exceeded a certain level of

14
personal campaign funding combined with monies from
outside groups. In the case, Chief Justice Roberts
wrote: “There is practically universal agreement that
a major purpose of the First Amendment was to protect
the free discussion of governmental affairs, including
discussions of candidates.” 564 U.S. at 755, 131 S. Ct.
at 2828–29, 180 L. Ed. 2d 664. The Chief Justice
elaborated on the central need for protection of
campaign political speech:
Discussion of public issues and debate on the
qualifications of candidates are integral to the
operation of our system of government. As a
result, the First Amendment has its fullest and
most urgent application to speech uttered during
a campaign for political office.
564 U.S. 721 at 2817, 31 S. Ct. at 2816–17. (citations
omitted). The Court then stated the principle at play,
albeit in a funding context, but in terms fully
applicable the choice created by the precedent of the
case below:
And forcing that choice - trigger matching funds,
change your message, or do not speak - certainly
contravenes the fundamental rule of protection
under the First Amendment, that a speaker has
the autonomy to choose the content of his own
message.
564 U.S. at 739, 131 S. Ct. at 2819–20. (citations
omitted.)
In the District Court summary judgment was
unambiguously premised on the unproven allegations
of Petitioner during the electoral campaign, as the

15
Court held that “the undisputed fact that, before
election day, Gonzales publicized and campaigned on
the allegation that Barboza and Rodriguez were sham
candidates precludes his claim.” App. 23.
The central pillar of the Seventh Circuit’s Opinion,
that the voters were not deceived, is an exercise in
speculation that - at best - belongs to the jury. Courts
do not make “credibility determinations nor choose
between competing inferences” at the summary
judgment stage. Sarsha v. Sears, Roebuck & Co., 3 F.
3d 1035 (7th Cir. 1993). The court must draw all
reasonable inferences in favor of the nonmoving party,
and not weigh the evidence. Reeves v. Sanderson
Plumbing, Products, Inc., 530 U.S. 133, 120 S. Ct. 2097
(2000). When conflicting theories are presented, it is
“clearly within the province of the jury to choose the
one they believed more reasonable.” Fritz v.
Pennsylvania R. Co., 185 F.2d 31, 34 (7th Cir. 1950).
That choice has not been granted in this case, as the
courts below have employed sheer speculation on the
educational effect of the statements of Gonzales and
media, then added more speculation on the effect of the
publicity on voters numbering in the tens of thousands
(i.e. all were knowledgeable and none were
“bamboozled”.)
Such naked speculation has been
questioned in other courts:
Now that voter qualifications are minimal,
realism requires one to recognize that many
people who vote are not well educated or well
informed. The cost to them of obtaining the
information they need in order to vote
intelligently may be very high, and therefore

16
their right to vote might be seriously impaired if
they had no legal protection against attempts to
mislead them, even though more alert and
informed voters would not be misled.
Grimes v. Smith, 585 F. Supp. 1084, 1090 (N.D. Ind.
1984)(Posner, Circuit J udg e, si t t i ng by
designation), aff’d, 776 F.2d 1359 (7th Cir. 1985),
The error of the court below extends even to the
selection of a standard of proof. Under this Court’s
precedent, in selecting a standard the District Court
was under a duty to articulate a legal standard that
“must give the benefit of any doubt to protecting rather
than stifling speech.” Federal Election Comm’n v.
Wisconsin Right To Life, Inc., 551 U.S. 449, 469, 127 S.
Ct. 2652, 2667, 168 L. Ed. 2d 329 (2007). The District
Court went in the opposite direction, ruling that
Petitioner had failed to adduce evidence that the
defendants’ fraud prevented the voters from “punishing
Madigan at the ballot box”, a most unusual burden that
had no basis in law. App. 24. The District Court created
an unconstitutional chilling effect on political speech by
penalizing Petitioner for speaking out against
deception on the ballot in the course of the campaign
leading up to voting on that very ballot.
The analogy presented by the Court of Appeals in
its Opinion affirming the judgment, in which the panel
equated Petitioner to a party whose claim is disproven
by his own speech, was wholly inapposite. In the
campaign, neither the Petitioner or the press ever
presented voters with proof of misconduct. While the
District Court agreed that a jury could find misconduct
from the evidence obtained in federal court discovery,

17
none of that evidence was available during the
campaign. App. 24. Instead, during the campaign the
press reported Defendants affirmative denials of
misconduct. The flaw in the reasoning of the Court of
Appeals is that it in effect makes the voters the “jury”
by relying on the electoral result as the verdict, when
the voters has no certain information on the actions of
the Defendants, but only the conflicting allegations and
denials of the candidates.
Such reliance, on election results to resolve a
Section 1893 claim is itself an unusual and disturbing
aspect of the decision case. In Kozuszek v. Brewer, 546
F.3d 485, 490 (7th Cir. 2008), the Seventh Circuit itself
starkly rejected the principle. is Court rejected the idea
that an electoral outcome could negate the misconduct
of election officials in in validating ballots of the
plaintiffs:
In addition to finding that the defendants had
not acted willfully, the district court noted that
“[t]here is no evidence that any elected position
in [the] election was decided by two or less votes.
As such, there can be no real argument that the
[spoliation] of these two votes either undermined
the election or caused the election to be unfair.”
This holding implies that any level of election
fraud is fine, so long as the fraud doesn’t impact
the final results of an election. But an election is
more than just a sum total of votes. It is also
about the act of voting—an individual’s ability to
express his or her political preferences at the
ballot box. An official who willfully interferes
with this act violates the Constitution,

18
regardless whether the vote would have affected
the election outcome.
In the case at bar the constitutional deprivation –
the placing of Hispanic sham candidates upon the face
of the ballot – predated the first vote being cast. The
election result could not cure it.
CONCLUSION
For all the foregoing reasons, Petitioner Jason
Gonzales respectfully requests that the Supreme Court
grant review of this matter.
Respectfully Submitted,
ANTHONY J. PERAICA
Counsel of Record
STEPHEN F. BOULTON*
JENNIFER M. HILL
ANTHONY J. PERAICA & ASSOCIATES, LTD.
5130 South Archer Avenue
Chicago, Illinois 60632
(773) 735-1700
support@peraica.com
Counsel for Petitioner

